   Audit of USAID’s Cargo Preference
Reimbursements under Section 901d of the
     Merchant Marine Act of 1936

        Audit Report No. 9-000-01-003-P
                March 30, 2001




             Washington, D.C.
USAID
OFFICE OF INSPECTOR
GENERAL
      Audit of USAID’s Cargo Preference
 Reimbursements under Section 901d of the
            Merchant Marine Act of 1936


               Audit Report No. 9-000-01-003-P

                                March 30, 2001
                             Washington, D.C.




                                     U.S. Agency for
                          International Development
U.S. AGENCY FOR
 I NTERNATIONAL
  D EVELOPMENT




March 30, 2001


MEMORANDUM
FOR:          A-AA/BHR, Leonard M. Rogers
              BHR/FFP, William T. Oliver, Jr.

FROM:         AIG/A, Toby L. Jarman /s/

SUBJECT:      Audit of USAID’s Cargo Preference Reimbursements under
              Section 901d of the Merchant Marine Act of 1936
              (Report No. 9-000-01-003-P)


This is our final report on the subject audit. In finalizing this report, we
considered comments on our draft report by USAID and the United States
Department of Agriculture’s Commodity Credit Corporation (CCC). We have
included responses from USAID and CCC as Appendix II and Appendix III,
respectively.

This report contains seven recommendations. Two of the recommendations
are monetary in nature and recommend potential reimbursements to USAID of
about $182 million. In your response to our draft report, you concurred with
all seven recommendations and their potential monetary benefits. We
therefore consider that a management decision has been reached on each of
the seven recommendations. Please coordinate final action for each
recommendation with M/MPI.

The scope of our audit included shipments financed under five U.S. food
assistance programs during fiscal years 1992 through 2000. While we reviewed
data on all five programs, our audit focused primarily on the two programs
administered by USAID—P.L. 480 Titles II and III. Accordingly, our findings
and recommendations target corrective actions to be taken by USAID.



                                                                               1
However, in order to be effective many of those actions need to be taken in
conjunction with CCC.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   2
Table of   Summary of Results                                           5
Contents
           Background                                                   6

           Audit Objective                                              8

           Audit Findings:                                              8

                  USAID Food Programs Could Be Entitled to
                  $175 Million in Unclaimed Reimbursements              9

                  $7.2 Million in Cargo Preference Reimbursements
                  Were Misallocated to Non-USAID Food Program           14

                  Invoices for Incremental Ocean Freight Differential
                  Were Not Prepared or Submitted in a Timely Manner     17

                  CCC and USAID Need to Determine the Cause of
                  Differences Between Amounts Requested and Actually
                  Reimbursed                                            20

                  Reimbursed Funds Were Not Apportioned
                  in a Timely Manner                                    24

                  Cargo Preference Reimbursement Procedures
                  Should be Clarified, Updated, and/or Improved         25

           Management Comments and Our Evaluation                       28

           Appendix I - Scope and Methodology                           31

           Appendix II - Management Comments: USAID                     33

           Appendix III – Management Comments: CCC                      35

           Appendix IV – Billing Status Update                          37

           Appendix V – Quarterly Invoices Submitted to MARAD
           by CCC for Incremental OFD Reimbursements for P.L. 480
           Titles II and III – Cargo Preference Years 1997-2000         38

           Appendix VI - Memorandum of Understanding                    39



                                                                             3
[This page intentionally left blank]




                                       4
Summary of   When providing food assistance to nations overseas, both USAID and the
Results      U.S. Department of Agriculture (USDA) are required by law to ship a certain
             percentage of tonnage on privately-owned U.S.-flag commercial vessels. This
             requirement, known as “cargo preference,” helps ensure that the United States
             maintains an adequate and viable merchant marine. In 1985 Congress increased
             this requirement, found in Section 901d of the Merchant Marine Act of 1936, as
             amended, from 50 percent to 75 percent for commodities shipped under certain
             U.S. food assistance programs. At the same time, Congress directed that the
             U.S. Department of Transportation (DOT) finance any increases in food
             assistance shipping costs due to the application of this new requirement. (See
             pages 6 through 7.)

             Under a Memorandum of Understanding with USAID and DOT’s Maritime
             Administration (MARAD), USDA, through its Commodity Credit Corporation
             (CCC) agreed to apply for cargo preference reimbursements from MARAD.
             Upon being reimbursed, CCC was to then apportion to USAID the reimbursed
             funds pertaining to the Agency’s P.L. 480 Title II and Title III food shipments.
             Since 1992, CCC has received a total of $284 million in cargo preference
             reimbursements for the five food assistance programs administered by USDA
             and USAID. Of that amount, $142 million was reimbursed to USAID for
             shipments made under P.L. 480 Titles II and III. (See pages 7 and 8.)

             However, as a result of this audit, we found that, in accordance with established
             laws, policies, and procedures governing the administration of cargo preference
             reimbursements, CCC could be entitled to as much as $289 million in additional
             unclaimed reimbursements for costs incurred during that same period. Of that
             amount, up to $175 million could be made available to the two programs
             administered by USAID. (See pages 8 through 14.)

             Furthermore, we found that at least $7.2 million (see pages 15 through 17) in
             cargo preference reimbursements had been misallocated to a non-USAID-
             administered program. During the audit, we also identified several procedural
             problems in the cargo preference reimbursement process which, if corrected,
             could result in significantly more accurate, complete, and timely
             reimbursements for the international food assistance programs administered by
             USDA and USAID. (See pages 17 through 28.)




                                                                                                5
Background   It is the policy of the United States to use its abundant agricultural productivity to
             promote the foreign policy of the United States by enhancing the food security of
             the developing world. The United States implements its international food
             assistance initiatives through five separate programs. Three of those programs are
             authorized, respectively, under Titles I, II, and III of the Agricultural Trade
             Development and Assistance Act of 1954, commonly referred to as “P.L. 480.”1
             The other two food assistance programs are known as the Section 416(b) program2
             and the Food for Progress program. 3

             Each of the P.L. 480 programs has different objectives. The Title I program
             provides for government-to-government sales of agricultural commodities to
             developing countries under long-term credit arrangements. The Title II program
             provides for the donation of U.S. agricultural commodities to meet emergency and
             non-emergency food security needs in foreign countries. The Title III program
             provides government-to-government grants to support long-term growth in the
             least developed countries. The U.S. Department of Agriculture (USDA)
             administers the P.L. 480 Title I, Section 416 (b), and Food for Progress programs,
             while USAID is responsible for administering P.L. 480 Titles II and III.4
             Although USAID administers the P.L. 480 Title II and III programs, funding for
             both programs is initially appropriated to USDA. USDA retains funds for
             commodity procurement, but transfers obligational authority to USAID, upon
             request, for other program costs including transportation.

             According to a January 2000 USAID report,5 the United States remains the
             world’s major provider of food assistance, despite recent budgetary constraints.
             The report states that, in fiscal year 1999 alone, the United States provided nearly
             10 million metric tons of food assistance, valued at more than $2.4 billion, to 82
             developing and re-industrializing countries. Through its administration of funds
             under P.L. 480 Titles II and III, USAID is responsible for the bulk of annually
             appropriated U.S. food assistance assets. Since 1992, USAID has expended nearly
             $2 billion to transport over $5 billion in food assistance commodities to foreign
             recipients under P.L. 480 Titles II and III.



             1
               Public Law 83-480 (July 10, 1954), also known as “P.L. 480” and “Food for Peace,” is
             authorized under the Agricultural Trade Development and Assistance Act of 1954.
             2
               The Section 416(b) program is authorized under Section 416(b) of the Agricultural Act of
             1949.
             3
               The Food for Progress program is authorized under Section 1110 of the Food Security Act of
             1985, but is dependent on funding through P.L. 480 Title I, Section 416(b), or the Commodity
             Credit Corporation.
             4
               The USAID office responsible for administering P.L. 480 Titles II and III is the Office of
             Food for Peace (FFP), under the Agency’s Bureau for Humanitarian Response (BHR).
             5
               U.S. International Food Assistance Report 1999; dated January 2000.



                                                                                                            6
      U.S.-flag vessel carrying 5,000mt of bulk corn from Beaumont,
      Texas to the Cape Verde Islands under USAID’s P.L. 480 Title II
      program. (Summer 2000)

Each of the five food assistance programs described above is required by law to
ship a certain percentage of tonnage on privately-owned U.S.-flag commercial
vessels. This requirement, known as “cargo preference,” is found in the Merchant
Marine Act of 1936 (the “Act”), as amended. The objective of this requirement is
to help ensure that the United States maintains an adequate and viable merchant
marine. From 1954 to 1985 the cargo preference requirement stipulated that at
least 50 percent of certain U.S. Government-generated cargoes be shipped on
U.S.-flag vessels. In 1985 Congress amended the Act to increase this requirement
from 50 percent to 75 percent for commodities shipped under certain U.S. food
assistance programs. At the same time, Congress directed that any increase in
food assistance shipping costs under these programs, due to the application of this
new cargo preference requirement, would be financed by the U.S. Department of
Transportation.

A 1987 Memorandum of Understanding (MOU) between USDA’s Commodity
Credit Corporation (CCC), the Department of Transportation’s Maritime
Administration (MARAD), and USAID set forth procedures through which
MARAD was to reimburse CCC for higher shipping costs resulting from the 1985
amendment. The MOU provided that CCC would initially bear all ocean freight
costs and that MARAD would then reimburse CCC based upon the submission of
periodic invoices, accompanied by supporting documentation. After receiving
reimbursements from MARAD, CCC arranges for reimbursed amounts to be
apportioned to the food assistance programs from which they originated. Any
rights USAID has to cargo preference reimbursements arise from this 1987 MOU
and the customary practices between USAID and USDA concerning the
administration and funding of P.L. 480 Title II and III programs.



                                                                                  7
Audit Objective   The Office of Inspector General initiated this audit based on information provided
                  by USAID/BHR/FFP during a prior audit of USAID’s P.L. 480 Title II
                  Monetization Programs.6 We undertook the current audit to determine the extent
                  to which U.S. international food assistance programs administered by USAID
                  were benefiting from cargo preference reimbursements made available under
                  Section 901d of the Merchant Marine Act of 1936, as amended.

                  The objective of this audit was to answer the following question:

                  What is the status of cargo preference reimbursements under Section 901d of
                  the Merchant Marine Act of 1936, as amended?

                  To obtain estimated dollar amounts of unclaimed reimbursements, we relied on the
                  Commodity Credit Corporation (CCC) which calculated those estimates based on
                  data generated from its internal computer systems. Although we verified the
                  accuracy of CCC’s calculations using such data, we did not test the reliability of
                  this data, or the systems from which it was generated.

                  Appendix I contains a discussion of the scope and methodology for this audit.




Audit Findings    What is the status of cargo preference reimbursements under Section 901d of
                  the Merchant Marine Act of 1936, as amended?

                  Since 1992, a total of $284 million in cargo preference reimbursements has been
                  made available to the United States Department of Agriculture (USDA) for
                  reprogramming under the five food assistance programs administered by USDA
                  and USAID. Of that amount, $142 million has been made available to USAID for
                  reprogramming under P.L. 480 Titles II and III. However, we believe that, in
                  accordance with established laws, policies, and procedures governing the
                  administration of cargo preference reimbursements, USDA could be entitled to as
                  much as $289 million in additional unclaimed reimbursements for costs incurred
                  during that same period. Of that amount, up to $175 million could be made
                  available to the two programs administered by USAID. We also believe that at
                  least $7.2 million in cargo preference reimbursements were misallocated to a non-
                  USAID-administered program. During the audit, we identified several procedural
                  problems in the cargo preference reimbursement process which, if corrected, could
                  result in significantly more accurate, complete, and timely reimbursements for the
                  international food assistance programs administered by USDA and USAID.


                  6
                      Audit Report No. 9-000-00-002-P



                                                                                                   8
USAID Food Programs Could Be Entitled to
$175 Million in Unclaimed Reimbursements

Section 901d of the Merchant Marine Act of 1936, as amended, authorized USDA
to claim reimbursement for excess ocean freight costs associated with the transport
of commodities under food assistance programs administered by USDA and
USAID. However, as of February 2001, USDA had not claimed, on behalf of
USAID, an estimated $175 million in such reimbursements for food assistance
shipments made since fiscal year 1993. This occurred because of confusion within
USDA concerning which office had the responsibility for preparing and
submitting reimbursement claims for excess ocean freight costs. Due to higher
management priorities and the lack of sufficient qualified staff for monitoring
cargo preference reimbursements, USAID was unaware that these reimbursements
were not being claimed. Consequently, potentially $175 million in unclaimed
reimbursements have not been made available to USAID for reprogramming
under P.L. 480 Titles II and III during the last seven years.

The Cargo Preference Act of 1954 amended the Merchant Marine Act of 1936 in
order to establish a requirement that at least 50 percent of agricultural cargoes
under certain U.S. foreign assistance programs be shipped on U.S.-flag vessels.
The objective of this “cargo preference” requirement was to help ensure that the
United States maintained an adequate and viable merchant marine for the defense
and economic security of the country. However, the requirement to use U.S.-flag
vessels often resulted in higher transportation costs for U.S. food assistance
programs due to higher rates charged by U.S.-flag carriers compared with foreign-
flag carriers. Until 1985, these additional transportation costs were borne by the
Federal agencies charged with administering the affected food assistance
programs.

The Food Security Act of 19857 amended the Cargo Preference Act of 1954 by
adding Sections 901a through 901k to the Merchant Marine Act of 1936. This
new legislation increased the cargo preference requirement (to use U.S.-flag
vessels for commodities shipped under U.S. food assistance programs) from 50
percent to 75 percent. However, Section 901d of the newly amended Merchant
Marine Act of 1936 also required the Secretary of the U.S. Department of
Transportation to finance or reimburse any increase in shipping costs resulting
from the application of the new cargo preference requirement. According to
Section 901d, the Department of Transportation had two new funding
responsibilities. The first was to finance any increased ocean freight charges
resulting from the application of the new 75 percent cargo preference requirement.
The second was to reimburse ocean freight costs incurred on the export of
international food assistance which exceeded 20 percent of the total purchase and
shipping costs of those commodities.


7
    Public Law 99-198, Section 1142.



                                                                                 9
                   U.S.-flag vessel docking at a foreign port to deliver
                         food assistance cargo. (Summer 2000)


The procedures for implementing those new funding responsibilities, to be
administered principally by the Department of Transportation’s Maritime
Administration (MARAD) and the Department of Agriculture’s Commodity
Credit Corporation (CCC), were outlined in a 1987 Memorandum of
Understanding8 (MOU) signed by representatives of MARAD, CCC, and USAID.
This MOU described procedures regarding the calculation, request, and payment
of cargo preference reimbursements. According to the MOU, MARAD was to,
upon submission and approval of agreed-upon documentation, reimburse CCC for
the following two types of shipping costs:

Incremental Ocean Freight Differential (OFD) – OFD is defined as the amount
by which the cost of ocean transportation is higher, by reason of the cargo
preference requirement that the commodities be transported on U.S.-flag vessels,
than would be the case for transportation on foreign-flag vessels. According to the
MOU, MARAD was to reimburse CCC for any incremental OFD costs, by
individual food assistance program, resulting from the application of the increased
cargo preference requirement. The reimbursements for incremental OFD costs
were to be based on invoices prepared and submitted quarterly by CCC during
each cargo preference year 9 (CPY). These invoices were to include additional
information for each shipment, such as identification numbers, bill-of-lading dates,

8
  A complete copy of the Memorandum of Understanding is included as Appendix VI in this
report.
9
  The cargo preference year begins April 1 and ends March 31 of the following calendar year.



                                                                                               10
vessel name, and shipping rates. According to the MOU, the invoice for each
quarter was to be provided by CCC to MARAD within forty-five calendar days
after the end of the quarter. After receiving an invoice, MARAD then had at least
forty-five additional calendar days to make the payment.

Excess Ocean Freight – According to the MOU, MARAD was to reimburse to
CCC the amount, if any, by which the total of the ocean freight costs borne by
CCC, including OFD, exceeded 20 percent of the total value of the commodities
shipped, plus ocean freight costs, for all CCC programs. The reimbursement for
excess ocean freight was to be based on invoices prepared and submitted annually
by CCC after the end of each fiscal year. 10 According to the MOU, CCC was to
submit an invoice to MARAD after the end of each fiscal year as soon as all
program costs had been ascertained and paid by CCC. Reimbursements were due
forty-five days after receipt of the invoice. Any amount of incremental OFD paid
to CCC by MARAD for each fiscal year was to be deducted from the excess ocean
freight reimbursement.

The MOU dictated that all CCC invoices to MARAD were to be submitted on a
Standard Form 1081.11 MARAD’s responsibilities were to review the
submissions, make adjustments if necessary, and send reimbursement payments to
CCC. Although the MOU did not address what was to happen to the
reimbursements once they reached CCC, the standard practice was for CCC to
allocate the reimbursed funds by requesting that they be apportioned back to the
programs from which they originated.




                                                                 U.S.-flag ship carrying
                                                                    P.L. 480 Title II
                                                                 shipment and bearing
                                                                  the USAID emblem.
                                                                    (Summer 2000)




According to USDA records, MARAD has paid CCC a total of $284 million in
cargo preference reimbursements for international food assistance shipments made
10
   The fiscal year begins October 1 and ends September 30 of the following calendar year.
11
   A Standard Form 1081 is the form CCC personnel prepares and submits to MARAD to
request allowable reimbursements.



                                                                                            11
between 1992 and 2000. Of that amount, USDA has made $142 million available
to USAID for reprogramming under P.L. 480 Titles II and III. The majority of
these reimbursements were for incremental OFD costs. For shipments made
during fiscal year 1992 through fiscal year 2000, CCC has received $249 million
in incremental OFD reimbursements, compared to only $35 million in excess
ocean freight reimbursements. However, because complete claims have not been
filed for OFD or excess ocean freight costs, significant additional reimbursements
are possible.

For excess ocean freight costs, CCC estimated that there were unclaimed
reimbursements totaling as much as $289 million for shipments made under the
five food assistance programs during fiscal year 1992 through fiscal year 2000. Of
that amount, up to $175 million could be made available to the two programs
administered by USAID ($163 million to P.L. 480 Title II and $12 million to P.L.
480 Title III).

The following table summarizes those estimates.


               Estimated Unclaimed Excess Ocean Freight
                            Reimbursements
              Program             (in millions of dollars)
         P.L. 480 Title I                   $51
         Section 416(b)                     $55
         Food for Progress                   $8
         P.L. 480 Title II                 $163
         P.L. 480 Title III                 $12
                Total                      $289


The above estimates were only for unclaimed excess ocean freight
reimbursements. Officials at CCC indicated that there were also a number of
unclaimed reimbursements for incremental OFD for shipments made during the
same period. Because OFD reimbursements are to be deducted from excess ocean
freight reimbursements, the final determination as to the exact amount of excess
ocean freight to be claimed for reimbursement will depend on the final quarterly
OFD reimbursements received for each fiscal year. At the time of the audit, CCC
officials were unable to estimate the amount of those unclaimed OFD
reimbursements. However, because OFD reimbursements are to be deducted from
excess ocean freight reimbursements, the total amount of unclaimed
reimbursements, estimated to be $289 million, is likely to be reimbursed either
through one reimbursement mechanism or the other.

These unclaimed excess ocean freight reimbursements accumulated for several
years without being paid because CCC had not submitted any invoices for


                                                                                12
reimbursement of excess ocean freight costs for shipments made after fiscal year
1993. The last invoice submitted by CCC for reimbursement of excess ocean
freight was for shipments made during fiscal year 1993. The main reason CCC
had not submitted more recent invoices for excess ocean freight reimbursement
was because of confusion within USDA offices concerning which office was
responsible for preparing and submitting the invoices.

Another factor that contributed to the accumulation of unclaimed excess ocean
freight reimbursements was that USAID managers did not closely monitor the
cargo preference reimbursement process. According to officials in USAID’s
Office of Food for Peace, higher management priorities and the lack of sufficient
qualified staff prevented the effective monitoring and administration of USAID’s
food assistance programs, with respect to cargo preference financing and
reimbursement provisions as they relate to Titles II and III. Consequently, USAID
management was unaware that invoices for excess ocean freight reimbursements
were not being submitted.

As a result, food assistance programs administered by both USDA and USAID
have not benefited from potentially hundreds of millions of dollars of
reimbursements over the last seven years. Delays in recovering allowable
reimbursements resulted in fewer funds being available for food assistance to
eligible recipients throughout the world than would have otherwise been available.
Further, the overall cost of implementing the cargo preference requirement, as
measured in terms of actual reimbursements from MARAD to USDA, has been
understated for the same period.



      U.S.-flag ship
     unloading food
       assistance
      commodities
    authorized under
      USAID’s P.L.
       480 Title II
        program.
     (Summer 2000)




As corrective actions on the part of USAID and CCC in relation to the audit
finding discussed above could result in a sizable one-time transfer of funds from
MARAD, we discussed the possibility and impact of such a transfer with officials
from the Office of Management and Budget (OMB). They assured us that cargo



                                                                                   13
preference reimbursements were authorized as a permanent, indefinite
appropriationmeaning that there was no limit on the amount to be paid as long
as the invoices were legitimate and met the conditions specified by law for
payment. Consequently, those OMB officials indicated that there should not be
any problem funding such a large transfer.

         Recommendation No. 1: We recommend that USAID’s
         Director of the Office of Food for Peace request the
         Commodity Credit Corporation to prepare and submit to the
         Maritime Administration invoices to recover all outstanding
         cargo preference reimbursements for excess ocean freight,
         currently estimated at $175 million, for shipping costs incurred
         under the P.L. 480 Title II and Title III programs during fiscal
         years 1994 through 2000, as identified in Appendix IV.



$7.2 Million in Cargo Preference Reimbursements
Were Misallocated to Non-USAID Food Program

According to the Comptroller General, reimbursements to appropriations are
required to be returned to the appropriation originally charged. A reimbursement
of $35 million was paid by MARAD to USDA in 1995 for excess ocean freight
costs incurred by U.S. food assistance programs during fiscal year 1992. Based on
our calculations, at least $7.2 million of that reimbursement was wrongly allocated
by CCC to the Section 416(b) program, administered by USDA, instead of to the
P.L. 480 Title II and III programs administered by USAID. This occurred because
CCC included Section 416(b) in the allocation of MARAD’s reimbursement even
though no portion of the reimbursement was attributable to Section 416(b)
activities. Further, there were no written procedures governing the method of
allocating excess ocean freight reimbursements. The result was that at least $7.2
million of the $35 million reimbursed was not equitably allocated to the food
assistance programs from which the costs originated.

In a decision regarding repayments to appropriations, 12 the United States
Comptroller General indicated that such repayments, including reimbursements
and refunds, were required to be deposited directly back to their original
appropriations. Because funding is appropriated separately for P.L. 480 Titles II
and III, we would expect that any reimbursements generated by the expenditure of
appropriated funds from either program would be made available for
reprogramming under the same program from which the funds originated.

12
   Accounting Systems Memorandum No. 10, October 5, 1950: “It has long been the rule of the
accounting officers of the United States that if a collection involves a refund of monies paid
from an appropriation in excess of what was actually due, such refunds are properly for credit to
the appropriation originally charged.” (5 Comp. Gen. 734, 736)



                                                                                              14
The original invoice submitted by CCC to MARAD for reimbursement of excess
shipping costs incurred during fiscal year 1992 was for $45 million. On that
invoice, CCC proposed to allocate the $45 million reimbursement only to the three
programs that had generated a portion of the reimbursement Food for Progress,
P.L. 480 Title II and P.L. 480 Title III. The P.L. 480 Title I and Section 416(b)
programs were not included in that allocation because their ocean freight costs
were not high enough to generate any excess ocean freight reimbursement during
the fiscal year. The original invoice indicated that the $45 million reimbursement
would be allocated as follows:

                              Proposed Allocation of          % of
               Program       Amount Originally Claimed        Total
          P.L. 480 Title I                    $0                0%
          Section 416(b)                      $0                0%
          Food for Progress          $4,651,070                10%
          P.L. 480 Title II         $24,763,233                55%
          P.L. 480 Title III        $15,713,943                35%
                Total               $45,128,246               100%

For the three programs that generated a portion of the claimed reimbursement,
CCC’s allocation was based on the proportion of each program’s costs relative to
the total costs incurred by all three programs during fiscal year 1992. We
believe that this constituted a reasonable basis of allocation. However, upon
receiving the original invoice, MARAD made adjustments to the total amount
claimed, and reimbursed only $35 million to CCC. After MARAD reduced the
total amount claimed from $45 million to $35 million, CCC changed its allocation
by including Section 416(b) in the allocation pool even though that program had
not generated any of the excess ocean freight reimbursement. This resulted in the
following allocation of the $35 million that was actually reimbursed:

                                  Actual Allocation of        % of
               Program            Amount Reimbursed           Total
          P.L. 480 Title I                       $0             0%
          Section 416(b)                $7,982,118             23%
          Food for Progress             $2,771,278              8%
          P.L. 480 Title II           $14,940,224              42%
          P.L. 480 Title III            $9,531,467             27%
                Total                 $35,225,087             100%


Instead of allocating the reimbursed amount only to the programs that had
generated a portion of the reimbursement, nearly a fourth of the total revised
amount was allocated to a program that had not generated any of the



                                                                                 15
               reimbursement. Section 416(b), which was not to receive any of the originally
               invoiced amount, was allocated $7,982,118 (23 percent) of the revised amount,
               resulting in reduced allocations to the other three programs. As a result,
               $7,170,141 ($4,377,446 for Title II and $2,792,695 for Title III) was not made
               available for reprogramming under programs administered by USAID. The
               following table shows the differences caused by this misallocation.

                     Actual Allocation    How Allocation Should
                        of Amount         Have Been Made Based
     Program           Reimbursed          on Original Invoice             Difference
P.L. 480 Title I                    $0                         $0                   $0
Section 416(b)              $7,982,118                         $0         $(7,982,118)
Food for Progress           $2,771,278                 $3,583,255            $811,977
P.L. 480 Title II         $14,940,224                $19,317,670           $4,377,446
P.L. 480 Title III          $9,531,467               $12,324,162           $2,792,695
      Totals              $35,225,087                $35,225,087                    $0

               Although the MOU did not include any guidance on how reimbursements for
               excess ocean freight were to be allocated, we believe that the original method of
               allocation on CCC’s original invoice was reasonable and recommend that it be
               used to adjust the amounts that were misallocated to the Section 416(b) program.
               As discussed in the previous section of this report, unclaimed reimbursements of
               excess ocean freight costs have been estimated to total hundreds of millions of
               dollars. Therefore, we believe that it would be prudent for USAID and CCC to
               mutually agree upon, and document, a consistent and equitable method of
               allocating such funds prior to their receipt.

                      Recommendation No. 2: We recommend that USAID’s
                      Director of the Office of Food for Peace request that the
                      Commodity Credit Corporation transfer a total of $7,170,141
                      from the Section 416(b) program to the P.L. 480 Title II
                      ($4,377,446) and Title III ($2,792,695) programs to correct the
                      misallocation of a cargo preference reimbursement, as detailed
                      in this report, for shipping costs incurred during fiscal year
                      1992.

                      Recommendation No. 3: We recommend that USAID’s
                      Director of the Office of Food for Peace, in conjunction with
                      the Commodity Credit Corporation, determine and document
                      a consistent and equitable method of allocating
                      reimbursements of ocean freight costs in excess of 20 percent of
                      total costs as authorized under Section 901d of the Merchant
                      Marine Act of 1936, as amended.




                                                                                                16
Invoices for Incremental Ocean Freight Differential
Were Not Prepared or Submitted in a Timely Manner

The Memorandum of Understanding (MOU) signed by MARAD, CCC, and
USAID in 1987 required CCC to submit invoices to MARAD for reimbursement
of incremental OFD costs within 45 calendar days after the end of each quarter.
We found that CCC has submitted quarterly invoices, resulting in $39 million in
reimbursements of incremental OFD for P.L. 480 Title II and III shipments made
during the last four cargo preference years, on average, 185 days after they were
due. All of those invoices were also incomplete, resulting in the need for
supplemental invoices which extended the reimbursement period even longer.
Supplemental invoices, for an estimated $13 million in reimbursements, have not
yet been submitted to MARAD. The primary reason incremental OFD invoices
were not prepared or submitted in a timely manner was because of missing
documentation which was required to be submitted with the invoices. Although
CCC and USAID have recently taken steps to improve this problem, untimely
submission of OFD invoices to MARAD has resulted in substantial delays of
cargo preference reimbursements over several years. Consequently, for P.L. 480
Title II and III shipments made during cargo preference years 1997 through 2000,
USAID’s access to quarterly reimbursements totaling over $39 million, for
reprogramming under its respective food assistance programs, was delayed by an
average of 185 days or more each quarter. An estimated $13 million in additional
incremental OFD reimbursements for shipments made during the same period
remain unclaimed.

Regarding reimbursement procedures for incremental OFD, the 1987 MOU states:

       CCC will prepare and submit to MARAD quarterly invoices for
       reimbursement of incremental OFD. The invoice for each quarter
       will be provided by CCC to MARAD within forty five (45)
       calendar days of the end of the quarter. The amount of the
       incremental OFD will be due within ten (10) calendar days after (i)
       the date CCC notifies MARAD in writing of its determination that
       50 percent of the estimated annual USDA/CCC program tonnage
       has been shipped on U.S.-flag vessels or (ii) the date determined
       and reported to MARAD by CCC that 50 percent of the estimated
       annual USDA/CCC program tonnage is reasonably expected to
       have been shipped but in any event, no payment will be made
       earlier than forty five (45) calendar days after receipt of the
       invoice.

Our review of quarterly invoices submitted to MARAD by CCC for incremental
OFD reimbursements for P.L. 480 Titles II and III for cargo preference years
1997-2000, revealed that, on average, those invoices were prepared 185 days after



                                                                                17
they were due. The table in Appendix V summarizes the amount of delay
associated with the preparation and submission of those invoices. In addition to
the invoices for cargo preference years 1997-2000, at the conclusion of our audit
none of the quarterly invoices for cargo preference year 2001 had been submitted,
even though the first three quarters for that year were also due.

The quarterly invoices for reimbursement of incremental OFD were also
incomplete. According to CCC, all incremental OFD invoices submitted for cargo
preference years 1997-2000 require amendments to claim reimbursements from
MARAD for shipments not reflected in the original quarterly invoices. At the end
of our audit, amended invoices were being prepared for shipments not included in
the initial quarterly invoices submitted for those four years. While CCC was
unable to estimate the dollar amount of those amendments, one CCC official
believed that the original invoices only covered about 75 percent of the tonnage
shipped during that period. Consequently, we believe that supplemental invoices
for reimbursement of incremental OFD have not yet been submitted for
approximately one-fourth of the tonnage of food assistance shipments made during
the last four cargo preference years. Based on the incremental OFD already
reimbursed for P.L. Title II and III shipments during those four years, the amount
of unclaimed incremental OFD for the same period could be as much as $13
million.

According to USAID, CCC, and MARAD, the biggest contributing factor for not
filing OFD invoices timely was the lack of shipping documentation. For each
shipment of food assistance, freight forwarders (often contracted by cooperating
sponsors involved in the distribution of food assistance) were required 13 to submit
to CCC “completion packages” containing such documentation as bills of lading,
shipping information logs, and booking confirmation reports. This documentation
was necessary to enable CCC to enter data into its automated database in order to
prepare the MARAD invoices. Copies of some of the shipping documents were
also needed to accompany CCC’s invoices to MARAD for reimbursement. Per
USDA, MARAD only reimburses amounts (1) which are supported by complete
documentation presented with the bill; (2) for which vessel classifications are
correct; and (3) which do not include any inland transportation charges. As of
March 2000, CCC records indicated that approximately 1,369 delinquent
completion packages had not been received from at least seven different freight
forwarders.




13
   Cooperating sponsors undertaking P.L. 480 Title II activities assume both programmatic and
financial accountability for the resources provided through individual grants and cooperative
agreements. Consistent with 22 CFR Section 211.4(e)(2) and USDA Notice to the Trade EOD-
44, dated 1 February 1999, freight forwarders representing a Title II cooperating sponsor are
required to send applicable completion packages to CCC by airmail or the fastest means
available within two weeks of the vessel sailing.



                                                                                           18
                                                            Unloading bagged
                                                          commodities for in-land
                                                               transport.
                                                             (Summer 2000)




            Unloading bulk corn
          from Beaumont, Texas,
             at port in the Cape
                Verde Islands.
               (Summer 2000)




The problem of missing documentation has been mitigated somewhat through
recent aggressive efforts by CCC and USAID. For example, in February 2000,
CCC and USAID personnel jointly identified processes that would accelerate the
receipt of documentation necessary for filing more complete cargo preference
reimbursement invoices. CCC initiated a tracking system that identified missing
documentation by program and sponsor. Reports generated by that tracking
system gave USAID additional information with which to better monitor the
documentation submission performance of contracted freight forwarders. With
this information, USAID has been able to improve the flow of required documents
by directly contacting delinquent freight forwarders and, in one case, temporarily
suspending a freight forwarder 14 for not submitting shipping documents in a
timely manner. Through these combined efforts, as of February 2001, the number
of delinquent completion packages had been reduced to 728 and were limited to
two freight forwarders. According to CCC, both of the freight forwarders have


14
    Our audit team visited this particular freight forwarder in July 2000 to determine the cause of
its delinquent completion packages. The freight forwarder’s manager said that he was unaware
of the problem until receiving a warning letter from USAID. The manager agreed to implement
corrective actions to help ensure that the missing documentation was sent to CCC.



                                                                                                19
agreed to train their personnel in order to eliminate the backlog of missing
completion packages.

Untimely submission of OFD invoices to MARAD has resulted in the substantial
delay of cargo preference reimbursements during the last four cargo preference
years. As a result, USAID’s access to quarterly reimbursements totaling almost
$39 million, for reprogramming under P.L. 480 Titles II and III, has been delayed
by an average of at least 185 days each quarter for shipments made during cargo
preference years 1997 through 2000. Also, an estimated $13 million in additional
incremental OFD reimbursements for shipments under P.L. 480 Titles II and III
during the same period remains unclaimed.


       Recommendation No. 4: We recommend that USAID’s
       Director of the Office of Food for Peace request the
       Commodity Credit Corporation to prepare and submit to the
       Maritime Administration invoices to recover all outstanding
       cargo preference reimbursements for incremental ocean
       freight differential, including supplemental invoices, for
       shipping costs incurred under the P.L. 480 Title II and Title III
       programs during cargo preference years 1997 through 2001, as
       identified in Appendix IV.



CCC and USAID Need to Determine the Cause of Differences
Between Amounts Requested and Actually Reimbursed

USDA’s financial management guidance requires that losses due to uncollectible
amounts be measured through a systematic, documented methodology. Since
1992, CCC has submitted invoices requesting $471 million in cargo preference
reimbursements for both incremental OFD and excess ocean freight costs. From
those invoices, MARAD has authorized payments of only $284 million, leaving a
difference (loss) of $187 million unpaid. According to MARAD, this occurred
because CCC did not always use accurate figures or formulas when calculating
reimbursements. However, at the time of our audit, neither CCC nor USAID had
reconciled or challenged the adjustments made by MARAD. This occurred
because the MOU did not outline specific reconciliation responsibilities.
Consequently, there has been no official determination on the part of CCC or
USAID as to whether MARAD’s rejection of $187 million in potentially valid
claims for cargo preference reimbursements was justified. Further, without
determining the causes of those differences, we believe they are likely to continue
to occur in the future.




                                                                                  20
According to the USDA Financial and Accounting Standards Manual:15

        Accounts receivable arise from claims to cash or other assets. A
        receivable should be recognized when a federal entity establishes a
        claim to cash or other assets against other entities, either based on
        legal provisions, such as a payment due date or good or services
        provided. If the exact amount is unknown, a reasonable estimate
        should be made… [In addition,] losses on receivables should be
        recognized when it is more likely than not that the receivables will
        not be totally collected. The phrase “more likely than not” means
        more than a 50 percent chance of loss occurrence. An allowance
        for estimated uncollectible amounts should be recognized to reduce
        the gross amount of receivables to its net realizable value…
        [Furthermore,] losses due to uncollectible amounts should be
        measured through a systematic, documented methodology that is
        applied consistently entity-wide. The systematic methodology
        should be based on analysis of both individual accounts and a
        group of accounts as a whole.

Based on this internal guidance, CCC personnel should have reconciled any
differences, “through a systematic, documented methodology,” between
incremental OFD and excess ocean freight invoices submitted to MARAD and the
actual amounts MARAD authorized for payment. Instead, when MARAD’s
actual payments differed from CCC’s original invoices, CCC accounting
personnel would simply adjust the accounts receivable balances, derived from the
original invoices, to reflect the actual amount paid. Accounting personnel at CCC
did not account for any of these differences as losses.

Since 1992, CCC has submitted invoices requesting a total of $471 million in
cargo preference reimbursements for both incremental OFD and excess ocean
freight costs. In accordance with the MOU, MARAD was to review the invoices
submitted by CCC using copies of ocean bills of lading. After reviewing those
invoices, MARAD has authorized payments totaling only $284 million, leaving a
difference (loss) of $187 million unpaid. Of the $187 million in rejected claims,
approximately $106 million related to invoices submitted by CCC for
reimbursement of incremental OFD costs. The remaining $81 million pertained to
invoices for reimbursement of excess ocean freight costs. The following chart
depicts the difference between the amount of cargo preference reimbursements
requested by CCC since 1992, compared to the amounts approved and actually
paid by MARAD.




15
  USDA Financial and Accounting Standards Manual, Version 2.0; Chapter 7; Cash, Debt, and
Disbursements Management.



                                                                                      21
                                                       OFD & 20% Excess Freight Billed & Reimbursed
                     $500




                     $400




                     $300

            $
        (millions)
                     $200




                     $100




                      $0

                            CPY93   FY92    CPY94      FY93     CPY95     CPY96     CPY97     CPY98     CPY99    CPY00               Overall
                                     20%               20%                                                                           Amount

                                                Billed Amounts                              Reimbursed Amounts
                                              (Bar Chart of ocean freight differential (OFD) and 20% Excess Freight)

This bar chart depicts billed and reimbursed amounts for Fiscal Years 1992 and 1993 20% excess freight costs and OFD reimbursed and billed amounts for cargo
preference years 1993 through 2000. The overall billed and reimbursed for both incremental OFD and excess ocean freight costs for the stated period is approximately
$491 million and $284 million, respectively.



Since 1992, USDA and USAID personnel have not reconciled cargo preference
reimbursement invoices submitted to MARAD with the actual amounts MARAD
paid. For example, in the excess ocean freight invoice for fiscal year 1993, USDA
requested reimbursement in the amount of $71 million. After analyzing the
invoice and related documentation, MARAD rejected the entire amount.

According to MARAD, this occurred because CCC did not use accurate figures or
formulas when calculating the reimbursement request. Part of the discrepancy was
because of a fundamental difference of opinion between CCC and MARAD
concerning the interpretation of the MOU as to how to calculate the excess ocean
freight reimbursement. 16 Also, MARAD adjusted the ocean freight costs
submitted by CCC by deducting in-land freight costs. According to MARAD, and
the MOU, in-land freight costs (the costs of transporting food assistance
commodities once they reach the receiving port of a host country) should not be
included in the ocean freight costs used to calculate excess ocean freight
reimbursements. The result of MARAD’s adjustments was a rejection of the total
amount requested. To date, neither CCC nor USAID has reconciled MARAD’s
denial of CCC’s invoice requesting excess ocean freight reimbursement for fiscal
year 1993 to determine whether or not MARAD’s declination of reimbursement
was justified.
16
   This difference of opinion related to where, in the excess ocean freight calculation, the
previously paid incremental OFD reimbursements were deducted. For its invoices requesting
reimbursement of excess ocean freight for shipments made during fiscal years 1992 and 1993,
CCC deducted previously paid OFD reimbursements from total program costs prior to
calculating the 20 percent benchmark. MARAD adjusted those calculations by deducting the
previous OFD reimbursements after calculating the 20 percent benchmark. This different
calculation method resulted in a MARAD adjustment reducing the amount paid by a total of
$23.4 million.



                                                                                                                                                                   22
    A U.S.-flag ship carrying P.L. 480 commodities to the Cape Verde
    Islands. (Summer 2000)

The MOU required MARAD to reimburse CCC for allowable shipping costs
associated with incremental OFD and excess ocean freight costs. However, the
MOU did not address how to treat any differences in requested versus actual
reimbursements. Determining the causes of MARAD’s adjustments to CCC
invoiced amounts could possibly provide over $187 million in additional
reimbursements for reprogramming, if those amounts turn out to be allowable and
thus reimbursable costs. At a minimum, by reconciling the differences between
requested and paid reimbursements, CCC might be able to account for the losses
and avoid such losses in the future. Consequently, we believe that USAID should
request that CCC reconcile the $187 million in rejected reimbursement requests
and jointly establish procedures with CCC to follow-up/reconcile all such
differences in the future.


       Recommendation No. 5: We recommend that USAID’s
       Director of the Office of Food for Peace request the
       Commodity Credit Corporation to reconcile the $187 million
       in differences between requested and paid reimbursements
       from cargo preference reimbursement invoices submitted to
       the Maritime Administration for shipments made since 1992 to
       determine 1) whether the Maritime Administration’s
       adjustments were justified; and 2) how to avoid such
       differences in the future.




                                                                              23
Reimbursed Funds Were Not
Apportioned in a Timely Manner

Contrary to Office of Management and Budget (OMB) guidance, CCC did not
always ensure that applicable cargo preference reimbursements, after being
received from MARAD, were apportioned to accounts accessible to USAID in a
timely manner. This condition occurred because CCC did not believe the funds
were needed immediately. Because reimbursements received by CCC in fiscal
years 1997 through 1999 were not apportioned until fiscal year 2000, up to $24
million was not available for USAID to reprogram under P.L. 480 Titles II and III
for a period of one to three years.

According to the General Accounting Office 17 (GAO), reimbursements are
considered a budgetary resource subject to apportionment by the Office of
Management and Budget (OMB). OMB Circular A-34 states that
reapportionment requests should be submitted to OMB “as soon as a change in an
apportionment previously made becomes necessary due to changes in amounts
available (e.g., actual reimbursements differ significantly from estimates)…”
Contrary to this guidance, CCC did not always request timely apportionment of
cargo preference reimbursements. For example, during fiscal years 1995 through
2000, MARAD approved $81 million in cargo preference reimbursements for P.L.
480 Titles II and III. However, at the beginning of our audit, only $57 million had
been apportioned to accounts accessible by USAID. The remaining $24 million,
for MARAD reimbursements received in fiscal years 1997 through 1999, was not
apportioned until fiscal year 2000.

These delays in apportionment occurred mainly because CCC did not believe the
funds were needed immediately. Further, USAID and CCC had not established
written procedures to ensure that CCC requested apportionment in a timely
manner. According to a CCC employee responsible for preparing apportionment
requests, USDA requests that funds be apportioned only as they are needed.
Because reimbursements received by CCC in fiscal years 1997 through 1999 were
not apportioned until fiscal year 2000, up to $24 million was not available for
USAID to reprogram under P.L. 480 Titles II and III for a period of one to three
years.

          Recommendation No. 6: We recommend that USAID’s
          Director of the Office of Food for Peace, in conjunction with
          the Commodity Credit Corporation, develop written
          procedures to help ensure that all cargo preference
          reimbursements, to which USAID food assistance programs
          are entitled, are apportioned to those programs in a timely
          manner.
17
     Principles of Federal Appropriations Law, Volume I, p. 5-66 (GAO/OGC-91-5).



                                                                                   24
Cargo Preference Reimbursement Procedures
Should be Clarified, Updated, and/or Improved

Procedures in the MOU between CCC, MARAD, and USAID are unclear,
outdated, and, in some cases, run contrary to the legislation authorizing cargo
preference reimbursements. Lack of specificity in those procedures has resulted in
many of the problems identified in this report. For this reason, we are
recommending that USAID seek to establish a joint task force, in conjunction with
the other involved agencies, to review the entire cargo preference reimbursement
process in order to identify and propose changes to increase the efficiency and
effectiveness of those procedures. The MOU has not been amended in over
fourteen years, even though major changes in responsibility have occurred.

The MOU between CCC, MARAD, and USAID, signed in July 1987, set forth the
manner in which those three agencies were to cooperate in administering the cargo
preference reimbursements authorized under the Merchant Marine Act of 1936, as
amended. Although the procedures outlined in the MOU have resulted in $284
million in cargo preference reimbursements from MARAD to CCC since 1992,
many of the problems addressed in this report, including reimbursements that were
not properly claimed, allocated, approved, or apportioned, could be attributed, in
part, to a lack of specificity with regard to those same procedures. For example,
the MOU did not clearly explain how the excess ocean freight reimbursement was
to be determined. As a result, CCC’s calculations for reimbursement of excess
ocean freight costs for fiscal years 1992 and 1993 exceeded MARAD’s
calculations by $23.4 million. Unclear instructions in the MOU have also resulted
in confusion with regard to the documentation required for claiming
reimbursements. This confusion has contributed to reimbursement delays which
have spread over several years.

The MOU also needs to be updated in order to reflect more current situations. For
example, the MOU indicates that USAID has administrative responsibilities for
cargoes moved under P.L. 480 Title II and Section 416(b), whereas USAID is
currently responsible for P.L. 480 Title II and III. The MOU does not even
mention the Food for Progress program, administered by USDA, which has
received over $24 million in cargo preference reimbursements since 1992.




                                                                                25
    Cranes unloading bulk corn at port in Cape Verde Islands. (Summer 2000)

The following are some additional areas in which, we believe, changes to the
procedures in the current MOU could improve the efficiency and effectiveness of
the cargo preference reimbursement process.

•   First, the entire process of funding increased shipping costs due to cargo
    preference should be revisited to determine whether there is a more efficient
    way of administering that process. For example, the authorizing language in
    Section 901(d) of the Merchant Marine Act indicates that the Secretary of
    Transportation would finance, not reimburse, any increase in ocean freight
    charges as a result of raising the cargo preference requirement from 50 percent
    to 75 percent. It appears that Congress’ intent was to immediately assist
    agencies administering food assistance programs by having the Department of
    Transportation (DOT) pay the incremental shipping costs. The reimbursement
    process outlined in the MOU requires USDA and USAID to finance those
    incremental costs up front and then seek reimbursement that may or may not
    be received until years after the shipping costs are actually incurred. We
    suggest that alternative methods for meeting the cargo preference funding
    mandates in Section 901d of the Merchant Marine Act of 1936 be considered.
    Possible alternatives might include DOT advancing funds to USDA, based on
    estimates, and liquidating those advanced funds as actual OFD costs occur.
    Another alternative might be for USDA to request an additional appropriation
    to cover incremental shipping costs. This would eliminate the time and money
    spent by USDA, USAID, and DOT on processing cargo preference
    reimbursements under the current procedures.




                                                                                26
•   If the current reimbursement process is retained, the procedures for submitting
    invoices and support documentation to MARAD could be streamlined or even
    eliminated in favor of filing for reimbursements electronically. Rather than
    providing MARAD with copies of support documentation, such as bills of
    lading, USDA could retain that documentation and allow MARAD to
    periodically inspect it. This would reduce the amount of required
    documentation and take advantage of the efficiencies of today’s automated
    environment.

•   The authorizing language in Section 901(d) of the Merchant Marine Act
    indicates that the Secretary of Transportation would finance any increased
    ocean freight charges incurred in any fiscal year as a result of the new cargo
    preference requirement. The MOU requires that the incremental OFD
    reimbursement be calculated by cargo preference year (April - March) and that
    the excess ocean freight reimbursement be calculated by fiscal year (October -
    September). Using two different years seems to create unnecessary
    administrative headaches and confusion. To simplify procedures, we suggest
    that alternatives be considered to calculate both types of reimbursements using
    the same 12-month period.

Although Section IX of the MOU allows the MOU to be amended at any time,
upon mutual agreement of the parties, the MOU has not been amended since it
was originally signed nearly fourteen years ago. We believe that the cargo
preference reimbursement process could benefit substantially from procedural
changes agreed to in an amended MOU. For that purpose, we recommend that a
joint task force, with representatives from each of the three agencies involved,
review the problem areas in this report and propose changes to the procedures in
the current MOU in order to increase the efficiency and effectiveness of the cargo
preference reimbursement process.

       Recommendation No. 7: We recommend that USAID’s
       Assistant Administrator of the Bureau for Humanitarian
       Response seek to establish a joint task force with the U. S.
       Department of Agriculture, the U. S. Department of
       Transportation, and the Office of Management and Budget to
       review the problem areas identified in this report for the
       purpose of modifying the 1987 Memorandum of
       Understanding in order to clarify, update, and improve
       current cargo preference financing procedures. This task
       force should include, at a minimum, representatives from
       USAID’s Office of Food for Peace, Office of Procurement, and
       Office of General Counsel; United States Department of
       Agriculture’s Commodity Credit Corporation, Foreign
       Agricultural Service, Farm Services Agency, and Office of




                                                                                 27
                        General Counsel; the Office of Management and Budget, and
                        the Department of Transportation’s Maritime Administration.




Management       In response to our draft report, USAID management concurred with each of the
Comments and     seven audit recommendations included in the report. Specifically, in response
Our Evaluation   to Recommendation No. 1, USAID management agreed to request that an
                 estimated $175 million be recovered. USAID management also noted that,
                 since fiscal year 1997, BHR/FFP has consistently, in its Federal Manager’s
                 Financial Integrity Act (FMFIA) Report, called to upper-management’s
                 attention that it was vulnerable to financial monitoring deficiencies due to lack
                 of qualified staff.

                 In response to Recommendation No. 2, USAID management agreed to request
                 that the Commodity Credit Corporation transfer a total of $7,170,141 to
                 accounts for P.L. 480 Titles II and III. USAID management also noted that the
                 President, as part of his fiscal year 2002 Budget Request, will ask for legislation
                 that will make funds recovered for Title III automatically available for Title II.

                 In response to the other five procedural recommendations, USAID management
                 agreed to implement our recommended actions. Finally, USAID management
                 clarified some of the background material contained in our draft report. We
                 have made appropriate changes to our final report based on those clarifications.

                 As a result of USAID management’s comments, included in their entirety as
                 Appendix II, we consider a management decision to have been made with
                 regard to each of the seven recommendations.

                 Because the findings and recommendations resulting from this audit concern the
                 United States Department of Agriculture’s Commodity Credit Corporation
                 (CCC), in addition to USAID, we provided a copy of our draft report to CCC
                 management for comment. In response to the draft report, CCC management
                 indicated that it agreed with many of the findings and recommendations
                 presented in the report, but requested that the report reflect certain events more
                 accurately. Specifically, CCC management indicated that USAID, in addition
                 to CCC, was responsible for ensuring accurate and timely billings for cargo
                 preference reimbursements, and that, over the years, CCC has repeatedly
                 requested assistance from USAID in obtaining missing documentation so that
                 invoicing and reimbursement could be achieved more timely. CCC
                 management also suggested that our report note that USAID and USDA are
                 continuing to work closely together to address many of the issues identified in
                 the report. CCC management provided additional information regarding such
                 issues as the reconciliation of reimbursements, joint meetings with USAID, and


                                                                                                  28
the apportionment of funds. We considered all of CCC management’s
comments and, where appropriate, made changes to our report.




                                                                    29
[This page intentionally left blank]




                                       30
                                                                                      Appendix I

Scope and     Scope
Methodology
              This Office of Inspector General conducted an audit to determine the status of
              cargo preference reimbursements under Section 901d of the Merchant Marine Act
              of 1936, as amended. The audit was conducted in accordance with generally
              accepted government auditing standards. Audit fieldwork was conducted in
              consultation with the United States Department of Agriculture’s (USDA) Office of
              Inspector General, between April 2000 and January 2001 in USAID’s
              Washington, D.C. offices, and USDA’s Washington, D.C and Kansas City
              Commodity Office (KCCO). In addition, we performed a field visit to the offices
              of a freight forwarder in New Jersey. The scope of this audit covered cargo
              preference shipments made from 1992 through 2000.

              The scope of our audit included shipments financed under five U.S. food
              assistance programs during fiscal years 1992 through 2000. While we reviewed
              data on all five programs, our audit focused primarily on the two programs
              administered by USAID—P.L. 480 Titles II and III. Since 1992, all five
              programs expended $3.2 billion to transport $11.6 billion in food assistance
              commodities to foreign recipients. Of that amount USAID expended nearly $2
              billion to transport commodities totaling $5.2 billion under P.L. 480 Titles II
              and III.

              Because the scope included all cargo preference shipments made from 1992
              through 2000, we decided a materiality threshold was not appropriate for the audit
              objective since we recommended recoupment of all allowable reimbursement
              claims.

              Our review of management controls focused on program operations, validity and
              reliability of data, and compliance with applicable laws and agreements.

              Methodology

              In order to accomplish the audit objective, we evaluated management controls
              and documentation relating to cargo preference reimbursements. In order to
              gain an understanding of the cargo preference reimbursement process, we held
              numerous discussions with officials at USAID, USDA, Commodity Credit
              Corporation, Kansas City Commodity Office, Office of Management and
              Budget, and the Maritime Adminstration, as well as other individuals outside
              the government with interest in USAID’s foreign food assistance programs. To
              facilitate accomplishing the audit objective, we developed an audit program and
              performed the following tasks:



                                                                                               31
•     Gathered and examined relevant laws, regulations, guidance, and
documentation to gain a better understanding of the cargo preference
reimbursement processes;

•       Flowcharted the reimbursement processes and identified and assessed
risks associated with management controls;

•       Obtained and reviewed copies of apportionment schedules to identify
the amount of funding, including cargo preference reimbursements, made
available under applicable U.S. foreign food assistance programs;

•      Reviewed USAID’s annual Federal Managers’ Financial Integrity Act
submission to identify any material weaknesses related to the audit objective;

•      Traced quarterly and annual invoices and payments for cargo preference
reimbursements to identify claimed, unclaimed, paid, and rejected amounts;

•      Reconciled quarterly and annual cargo preference reimbursed and
apportioned amounts to available documentation; and

•      Assisted USAID and USDA with obtaining required documentation
from freight forwarders needed to file reimbursements.

To obtain estimated dollar amounts of unclaimed reimbursements, we relied on
CCC which calculated those estimates based on computer-generated data from
its Processed Commodities Inventory Management System and financial
accounting systems. Although we verified the accuracy of CCC’s calculations
using such data, we did not test the reliability of that data, or the systems from
which it was generated, because those systems, and their related controls, were
not within the purview of the OIG. For example, we did not test the
completeness or accuracy of CCC’s shipping and cost data by tracing that data
back to source documents. However, based on the testing that we did
accomplish, as well as assertions of accuracy and completeness from CCC, we
were able to obtain sufficient reasonable assurance to draw the conclusions and
make the recommendations included in this report.




                                                                                 32
                                                                                        Appendix II

Management
Comments:
USAID

                                                                        MAR 28 2001
    MEMORANDUM

    TO: AIG/A, Toby L. Jarman

    FROM:        AA/BHR, Leonard M. Rogers /s/
                 BHR/FFP, William T. Oliver /s/

    SUBJECT: Audit of Cargo Preference Reimbursements under Section 901d of the
    Merchant Marine Act of 1936 (Report No. 9-000-01-00X-P)

    We concur in all of the recommendations contained in the audit report and believe, if
    successfully implemented, they will result in more cost-effective implementation of
    the cargo preference financing and reimbursement requirements. We appreciate the
    diligence and professionalism of the IG/A team in conducting this audit as a result of
    issues raised by BHR/FFP in a meeting of the Food Aid Consultative Group. We
    have a few specific comments on various sections of the report.

    BACKGROUND SECTION

    The final sentence of the full paragraph on page 4 somewhat incorrectly characterizes
    USAID's responsibilities. USDA retains obligation authority and funds for
    commodity procurement and the payment of claims. Upon request from USAID,
    USDA transfers obligation authority to USAID only for other program costs
    including transportation.

    Footnote 4 indicates that BHR/FFP is responsible for administering P .L. 480, Titles
    II and III. BHR/FFP is only partially responsible for the administration of P .L. 480,
    Titles II and III. With respect to Title II, ADS 103.3.8. 7c states, "AA/M is delegated
    the functions and authorities in section 407(d) of P.L. 480, with respect to the
    purchase of ocean transportation services and authority to sign, on behalf of US AID,
    U.S. Government contracts under section 407(d) and grants and cooperative
    agreements under Title V of P.L. 480." In addition, ADS 103.3.8.7d provides that
    Mission Directors, other principal officers of USAID field posts, and in countries
    where USAID is not represented, principal diplomatic officers are delegated certain
    authorities with respect to P .L. 480 claims against private voluntary agencies arising
    under USAID Regulation 11. Finally, per the provision of ADS 103.3.8.7ela),
    AA/BHR, has delegated the authority to manage Title V (Farmer-to-Farmer) of P.L.
    480 to the Director of the Office of Private and Voluntary Cooperation in BHR.



                                                                                                33
With respect to Title III, the USAID Automated Directive Systems (ADS) 103.3.8.7b
delegates the authority for Title III management to the USAID Regional Bureaus,
acting with the concurrence of AA/BHR. BHR/FFP's responsibility for Title III is
limited to the procurement and transportation of commodities as agreed to by regional
bureau AAs and host country governments.

AUDIT RECOMMENDATION NO.1

We concur in this audit recommendation and agree to request that an estimated $175
million be recovered. We note, however, that since FY 1997, BHR/FFP has
consistently, in its Federal Managers Financial Integrity Act (FMFIA) Report, called
to USAID Management's attention that it was vulnerable to financial monitoring
deficiencies due to lack of qualified staff.

We note that the phrase “excess ocean freight” appearing in line 5, paragraph 1, page 9
and in the recommendation itself is used with consistent meaning throughout the
narrative text. The terminology used in the header of Appendix IV, “20% commodity
excess,” varies with the narrative usage. We understand that Appendix IV is a USDA
document and could not be conformed to the clearer phraseology of the text.

AUDIT RECOMMENDATION NO.2

We concur in the recommendation to request the Commodity Credit Corporation
(CCC) to transfer a total of $7,170,141 to the Titles II and III accounts. We note,
however, that the President, as part of his FY 2002 Budget Request, will ask for
legislation that will automatically make funds recovered for Title III automatically
available for Title II.

AUDIT RECOMMENDATIONS NOS. 3 THROUGH 7

We concur in the recommendations.




                                                                                          34
                                                                                           Appendix III


Management
Comments: CCC

                                                                                             MAR 21 2001

TO:        Dianne L. Rawl
           Office of the Inspector General
           Agency for International Development

FROM:      Sally F. Nunn /s/
           Acting Controller
           Commodity Credit Corporation

SUBJECT:       Audit of Cargo Preference Reimbursements under Section 901 d of the Merchant
               Marine Act of 1936

United States Department of Agriculture (USDA) has reviewed the above mentioned draft audit
report. While we agree with many of the findings and recommendations presented in the report, we do
not believe that the report accurately reflects certain events and would appreciate your consideration of
the following comments.

The draft report states that invoices for incremental ocean freight differentials were not prepared and
submitted in a timely manner. What the report fails to mention is the US Agency for International
Development (USAID), not only Commodity Credit Corporation (CCC), is responsible for providing
or insuring timely submission of a portion of the documentation. We note that over the course of
several years, USDA/CCC has repeatedly requested assistance from USAID in providing missing
documentation so that invoicing and reimbursement could be achieved more timely.

We suggest that the report should note that on-going meetings are continuing to be held between
USAID and USDA to aggressively address many of the issues identified in this report. USAID and
USDA continue to work closely together to resolve outstanding issues relating to delinquent
documentation to improve the billing process. The objective of this joint effort is to bring the quarterly
billings current and to allow for proper billing of the 20 % excess ocean freight.

The report leaves the impression that CCC fails to fully reconcile the billed amounts with those
reimbursed by MARAD. We would like to clarify that each time a reimbursement is received from
MARAD, either MARAD provides CCC with an explanation for the adjustments made or CCC seeks
clarification of adjusted amounts. We suggest that your report reflect the fact that MARAD only
reimburses amounts (1) which are supported by complete documentation presented with the bill; (2)
for which vessel classifications are correct; and (3) which do not include any inland transportation
charges. Unless MARAD is totally satisfied with both billing and supporting documentation, they will
adjust the amount billed. In addition, MARAD requests only single billing



                                                                                                       35
per quarter, per program. In the past, due to the timing of CCC's receipt of documentation, numerous
billing updates were required.

USDA strongly disagrees with Footnote #10 and suggests the following wording: “the fact that
excess ocean freight reimbursements were not being claimed first surfaced during a January 11,
2000 meeting with USDA and USAID to discuss delayed OFD billings caused by missing
documentation.”

With respect to apportionment schedules for these funds, the USDAIFSA Budget Division prepares
an apportionment schedule for either of two reasons: (1) a program is approaching the limits of its
available funds, or (2) USAID provides a written request for an apportionment. Please be advised
that neither of these events has occurred in the past. If this issue needs to be addressed further, we
would be willing to arrange with the appropriate representatives of the Budget Division to meet at
your convenience.

Finally, we would like to emphasize that both USAID and USDA share responsibility for ensuring
accurate and timely billings for Cargo Preference reimbursements. USDA, as a service provider to
the programs administered by USAID, cannot submit billings to MARAD until we receive accurate
and complete documentation with which to prepare the billing. As noted above, USDA has been
working closely with USAID to improve the process and we believe that much progress has been
made to date. Both Agencies recognize that some issues are yet to be resolved but we are committed
to the cooperative efforts currently under way. We are certain that, with improved timeliness of
document receipt, we can jointly resolve these issues with an improved, more timely billing process.




                                                                                             36
                                                                                Appendix IV


                                    Billing Status Update
                     Ocean Freight Differential and 20% Commodity Excess
                                        February 2001


                             OCEAN FREIGHT DIFFERENTIAL BY CARGO PREFERENCE YEAR
                                          (APRIL 1 THROUGH MARCH 31)
Cargo Preference Year          Quarterly Invoice                        *Amended Invoice       Amended Invoice
       (CPY)                 Submitted to MARAD      Paid by MARAD     Submitted to MARAD      Paid by MARAD
        1997                      Invoiced                 Yes                  No                    No
        1998                       Invoiced                Yes                  No                    No
        1999                       Invoiced                Yes                  No                    No
        2000                       Invoiced           Yes (first two            No                    No
                                                         quarters)
        2001                         No                     No                No                     No

*Note: An amended invoice is to bill MARAD for shipments that were not included in the original
quarterly invoice, due to lack of documentation from the freight forwarders. ALL OFD PRIOR TO
CPY 1997 HAS BEEN RESOLVED.




                                        20% COMMODITY EXCESS
                                            BY FISCAL YEAR
                                   (OCTOBER 1 THROUGH SEPTEMBER 30)
               Fiscal Year         Invoices Submitted to MARAD         Invoice Paid by MARAD
                  1992                                      Yes                  Yes
                  1993                         Yes                                No
                  1994                          No                                No
                  1995                          No                                No
                  1996                          No                                No
                  1997                          No                                No
                  1998                          No                                No
                  1999                          No                                No
                  2000                          No                                No




SOURCE: USDA, February 2001




                                                                                                             37
                                                                        Appendix V


                   Quarterly Invoices Submitted to MARAD by CCC
                         for Incremental OFD Reimbursements
                               for P.L. 480 Titles II and III
                           Cargo Preference Years 1997-2000
    CPY             CPY             Due Date      Actual    Number of      Amount
by Quarter    Quarterly Periods     per MOU       Date      Days Late     Reimbursed
96-97
1st Q        1 Apr 96 – 30 Jun 96   14 Aug 96   24 Dec 96     132         $2,309,118
2nd Q        1 Jul 96 – 30 Sep 96   14 Nov 96   26 Jun 97     224         $1,643,490
3rd Q        1 Oct 96 – 31 Dec 96   14 Feb 97   26 Aug 97     193         $2,757,381
4th Q        1 Jan 97 – 31 Mar 97   15 May 97   19 Jan 98     249         $1,476,640

97-98
1st Q        1 Apr 97 – 30 Jun 97   14 Aug 97   27 Jan 98     166         $2,401,709
2nd Q        1 Jul 97 – 30 Sep 97   14 Nov 97   10 Mar 98     116         $2,569,358
3rd Q        1 Oct 97 – 31 Dec 97   14 Feb 98   29 Apr 98      74         $1,645,144
4th Q        1 Jan 98 – 31 Mar 98   15 May 98   26 Aug 98     103         $1,142,258

98-99
1st Q        1 Apr 98 – 30 Jun 98   14 Aug 98   2 Dec 98      110         $2,030,494
2nd Q        1 Jul 98 – 30 Sep 98   14 Nov 98   7 May 99      174         $3,163,434
3rd Q        1 Oct 98 – 31 Dec 98   14 Feb 99   21 Jun 99     127         $2,829,100
4th Q        1 Jan 99 – 31 Mar 99   15 May 99   12 Jan 00     242         $2,228,707

99-00
1st Q        1 Apr 99 – 30 Jun 99   14 Aug 99   3 Aug 00      355         $2,199,039
2nd Q        1 Jul 99 – 30 Sep 99   14 Nov 99   22 Aug 00     282          $947,430
3rd Q        1 Oct 99 – 31 Dec 99   14 Feb 00   26 Sep 00     225         $3,828,638
4th Q        1 Jan 00 – 31 Mar 00   15 May 00   20 Nov 00     189         $5,591,605

                      Average/Total                           185         $38,763,545




                                                                                        38
                                                                          Appendix VI

                      MEMORANDUM OF UNDERSTANDING

                                BETWEEN

                      COMMODITY CREDIT CORPORATION

                                  AND

                         MARITIME ADMINISTRATION
                      DEPARTMENT OF TRANSPORTATION

                                  AND

                  AGENCY FOR INTERNATIONAL DEVELOPMENT

                               I-Purpose

This Memorandum of Understanding (“MOU”) sets forth the manner in which
the Commodity Credit Corporation (“CCC”), an
agency within the Department of Agriculture (“USDA”), and
the Maritime Administration (“MARAD”), and agency within the
Department of Transportation (“DOT”), and the Agency for
International Development (“AID”) shall cooperate in certain
areas of the administration of the cargo preference require-
ments set forth in Section 901a through 901k of the Merchant Marine
Act, 1936, as amended (“1936 Act”) (46 U.S.C. 1101 et
seq.).

                    II – Administration of 1936 Act

The Secretary of Transportation is responsible for the
administration of the cargo preference provisions of the
1936 Act. MARAD will act for the DOT in carrying out the
administration of certain cargo preference programs of the
1936 Act in accordance with this MOU.

AID has certain administrative responsibilities relevant to
this MOU for cargoes moved under Title II, Public Law 480
and Section 416(b) of the Agricultural Act of 1949.

                             III-Background

A.   General

Section 1142 of the Food Security Act of 1985 (P.L. 99-198,
December 23, 1985) amended the 1936 Act, inter alia, by adding sections
901a through 901k which modified and expanded the application of cargo
preference requirements to certain export activities of the Secretary
of Agriculture or the CCC.
B.   Section 901b

Section 901b of the 1936 Act provides that in addition to
the requirement for U.S. – flag carriage of 50 percent of the tonnage
imposed by section 901(b)(1) of the 1936 Act, an additional 10 percent
of the tonnage of agricultural commodities or products thereof shipped
under export activities of the Secretary of Agriculture or CCC
specified section 901b(b) of the 1936 Act shall be transported on
U.S. – flag vessels during the 12-month period commencing
April 1, 1986, with such percentage increasing to 20 percent for the
12-month period commencing April 1, 1987, and to 25 percent for each
12-month period thereafter.

C.   Section 901d(a)

Section 901d(a) of the 1936 Act provides that the “Secretary of
Transportation shall finance any increased ocean freight charges
incurred in any fiscal year which result from the application of
Section 901b” of the 1936 Act.

D.   Section 901(b)

Section 901d(b) of the 1936 Act provides that if in any fiscal year the
total cost of ocean freight and ocean freight differential incurred by
CCC on the export of commodities and products thereof under export
activities specified in section 901b exceeds 20 percent of the total of
the value of such commodities and products and the costs of such ocean
freight and ocean freight differential incurred by CCC during such
fiscal year, the Secretary of Transportation shall reimburse the CCC
for the amount of such excess.

E.   Section 901k

Section 901k of the 1936 Act provides that “(a) United States flag
vessel eligible to carry cargoes under sections 901b through 901d means
a vessel, defined in section 3 of title 1, United States Code, that is
necessary for national security purposes and, if more than 25 years
old, is within five years of having been substantially rebuilt and
certified by the Secretary of Transportation as having a useful life of
at least five years after that rebuilding.”

F.   Section 901b(c)(2)(B)

Section 901b(c)(2)(B) provides that “the Secretary of Transportation,
in administering this subsection [901b(c)] and section 901(b),
consistent with these sections shall take such steps as may be
necessary and practicable without detriment to any port range to
preserve during calendar years 1986, 1987, 1988 and 1989 the percentage
share, or metric tonnage of bagged, processed, or fortified
commodities, whichever is lower, experienced in calendar year 1984
as determined by the Secretary of Agriculture, of waterborne
cargoes exported from Great Lakes ports pursuant to title II
of the Agricultural Trade Development and Assistance Act of
1954 (7 U.S.C. 1721 et seq.).”

G.   USDA/CCC Export Activities

The export activities of the Secretary of Agriculture or CCC
(“USDA/CCC programs”) which are covered by section 901b(b)
of the 1936 Act are as follows:

      1. Titles I & III of the Agricultural Trade Development and
Assistance Act of 1954, as amended (“P.L. 480, Titles I and III”).

      2. Title II of the Agricultural Trade Development and
Assistance Act of 1954, as amended (“P.L. 480, Title II”).

      3. Section 416(b) of the Agricultural Act of 1949, as
amended (“Section 416(b)”).

      4. Other Programs – CCC will notify MARAD of the
impending establishment of new export programs or reactivation of
currently inactive export programs subject to
the cargo preference provisions of the 1936 Act. MARAD, CCC
and, as appropriate, AID will consult each other on the
establishment of any additional administration procedures
under terms of this MOU deemed desirable to accommodate such
programs.

                             IV – Definitions

The following definitions will be used for the purpose of
this MOU:

      1. “USDA/CCC Cargo Preference Year” (“C.P. Year”) is
the twelve month period commencing April 1, 1986, and ending
March 31, 1987, and each subsequent twelve month period thereafter.

      2. “Value of Commodities” for agricultural exports accounted for
under section 901d(b) of the 1936 Act shall be determined by the
Secretary of Agriculture.

      3. “Ocean Freight Differential” (“OFD”) is the amount by which
the cost of ocean transportation is higher by reason of the cargo
preference requirement that the commodities be transported on U.S. –
flag vessels than would be the case for transportation on foreign-flag
vessels. Any despatch accruing to CCC shall be deducted in determining
the OFD to be reimbursed by MARAD. OFD will be established for each
shipment on an eligible U.S. flag vessel.

4.   “Ocean Freight” is the total compensation borne by
CCC for the ocean transportation of a shipment under a USDA/CCC
program. In determining ocean freight, the amount of despatch
received by CCC, as well as the amount of overseas bagging and
overseas inland transportation costs, shall be excluded. Demurrage
payments, if any, financed by CCC shall be included.

5. “Recaptured Ocean Freight” is any ocean freight amount obtained
from an ocean carrier as a refund because of a reduction in voyage
costs resulting from scrap voyages, return cargo carried, or one way
voyages. The amount of the recaptured ocean freight shall be deducted
from any ocean freight and OFD computations.

6. “USDA/CCC Program Tonnage” is the tonnage of cargoes shipped under
a USDA/CCC program within a cargo preference year computed on the
basis of bill of lading on-board dates.

                           V – Implementation

A.   General

     1. CCC shall initially bear all costs of ocean freight and OFD
paid to U.S. – flag carriers on cargoes carried in connection with
USDA/CCC programs.

     2. MARAD shall reimburse CCC for the amount of the incremental
OFD computed in accordance with this MOU (“Incremental OFD”).

     3. MARAD shall reimburse CCC for the amount, if any, by which
the total of the ocean freight and OFD exceeds 20 percent of the total
of the value of the commodities, ocean freight and OFD for all
USDA/CCC programs covered by this MOU (“20 percent excess freight”).

B.   Incremental OFD

     1. Reimbursement – MARAD shall reimburse CCC for the incremental
OFD payments separately for each USDA/CCC program when it has been
determined by CCC and reported in writing to MARAD that 50 percent of
the estimated annual USDA/CCC program tonnage (i) has been shipped on
U.S. – flag vessels, or (ii) is reasonably expected to have been
shipped on U.S. – flag vessels as of the date of report.

     2.   Determination of OFD by USDA/CCC Program

           (a) P.L. 480, Titles I and III. OFD for P.L. 480, Titles
I and III will be computed by the Director, P.L. 480, Operations
Division, Foreign Agricultural Service, USDA, in accordance with USDA
regulations.
(b)    P.L. 480, Title II and Section 416(b)

      (i) Liner Shipments. OFD for P.L. 480, Title II and Section
416(b) liner shipments will be computed by the Director, Kansas City
Commodity Office, Agricultural Stabilization and Conservation Service,
USDA. The OFD is the difference between (1) the U.S. – flag rate
booked and (2) the foreign flag rate on file with the Federal Maritime
Commission or submitted to KCCO by a foreign flag carrier that would
have been utilized for determination of lowest landed cost, absent the
cargo preference requirement.

      (ii) Chartered Shipments. OFD for P.L. 480, Title II and
Section 416(b) chartered shipments will be computed by the Chief,
Transportation Division, AID (“Chief, T.D., AID”). The OFD is the
difference between the weighted average freight rate(s) of foreign flag
vessel(s) fixed and/or offered that, in the opinion of the Chief, T.D.,
AID could carry the quantity of cargo absent the requirement to use
U.S. –flag vessel(s), and (1) the rate(s) for the U.S.-flag(s) fixed;
or (2) the rate(s) offered (including any lower rates negotiated) by
U.S. –flag vessel(s) which could have carried the required tonnage and,
in the opinion of the Chief, T.D., AID represents the lowest landed
cost (U.S. –flag basis). When foreign-flag vessels are not fixed
and/or offered, or when offered, have specifications which preclude
their use, the rates(s) to be used in computing OFD will be determined
by the Chief, T.D., AID using any market data deemed relevant which
provide reasonable comparability.

3.    Determination of Incremental OFD

      (i) For each C.P. year beginning in 1986, the average OFD paid
by CCC will be computed separately for each USDA/CCC program by
dividing the total amount of OFD paid by CCC by the total tonnage
shipped. MARAD shall pay CCC the total of the average OFD multiplied
by the total tonnage shipped (but not exceeding the total cargo
preference requirement) multiplied by the ratio of the applicable
increased cargo preference requirement to the total cargo preference
requirement for the C.P. year.

      (ii) The OFD paid for U.S. –flag vessels that are 25 years and
older and are not within five years of having been substantially
rebuilt as defined in section 901k of the 1936 Act are to be
deducted from the computation of the average OFD described in
subparagraph (i)above. The average OFD on the remaining tonnage will
be applied to the current legislated increment of the total U.S. –flag
tonnage.

(iii) The computation of the incremental OFD for the final quarter
of a C.P. year shall reflect any appropriate adjustment, if necessary,
for payments made in the previous three quarters.

C.   Determination of 20 Percent Excess Freight

     1. MARAD shall pay to CCC the amount, if any, by which the total
of the ocean freight and OFD borne by CCC exceeds 20 percent of the
total value of the commodities shipped, ocean freight and OFD for all
USDA/CCC programs for each of the fiscal years beginning in 1986 (last
six months), and thereafter.

     2. Any amount of incremental OFD paid to CCC by MARAD for each
fiscal year shall be deducted from the OFD computation in paragraph 1
above.

D.   List of Eligible U.S. –Flag Vessels.

MARAD shall provide the Director, P.L. 480 Operations Division, FAS,
USDA periodically with a current list of U.S. –flag vessels that are
eligible to carry preference cargoes pursuant to section 901k of the
1936 Act. If a vessel is not on the list, the Director will seek
MARAD’s determination as to its eligibility.

E.   Plans and Reports Required by MARAD

In order to facilitate the administration of this MOU, CCC will
provide the following data to MARAD:

     1. The estimated annual program tonnage for each USDA/CCC
program updated as necessary but at least quarterly.

     2. The estimated annual OFD payments for each USDA/CCC program
by quarters updated as necessary but at least quarterly.

     3. Each CCC invoice for OFD shall include the following
additional information for each shipment:

        (a)   All shipments:

           (1) PA, number or other applicable transaction
identification number.
             (2)   CCC-106 number for P.L. 480, Title I shipments.

             (3)   Bill-of-lading date.

             (4)   Vessel name.

             (5)   Metric tons shipped.

             (6)   OFD amount disbursed.

             (7)   OFD amount receivable for MARAD.

            (8) Identification of those vessels not eligible under
section 901k.

(b) Additional information for P.L. 480, Title II and Section 416(b)
shipments:

             (1)   Sponsoring agency.

             (2)   Load port.

             (3)   Discharge port or country.

             (4)   Commodity identification.

             (5)   U.S. –flag rate per metric ton.

             (6)   Foreign-flag rate per metric ton.

4. CCC will provide MARAD with a quarterly listing showing separately
for foreign and U.S. –flag ships for each USDA/CCC program the
following information for each shipment.

            a. Corresponding purchase order number or other applicable
identification transaction number.

             b. Vessel name.

             c. Bill of lading date.

             d. Load port or range.

             e. Discharge port where available otherwise country of
discharge.

             f. Metric tons shipped.

             g. Commodity and packing (if feasible).

            h. Commodity value.    This may be provided in a separate
quarterly report.
      i. Total freight amount (if paid by CCC).   This may be provided
in a separate report.

5. MARAD will review invoices using copies of ocean bills of lading
provided by CCC in accordance with 46 CFR Part 381.3 for P.L. 480,
Titles I, II, and III and Section 416(b).

6. The documentation supporting the information and computations
involved in this MOU in connection with all USDA/CCC programs shall be
retained in the file of the Director, P.L. 480 Operations Division,
FAS, USDA, Chief, T.D., AID or the Director, KCCO, USDA, as applicable,
for a period of three years after the completion of the USDA/CCC
program year.

                      VI – Public Law 480 Title II
                   Exports Through Great Lakes Ports

1. Public Law 480, Title II shipments from Great Lakes ports will be
accounted for in each of the C.P. years 1986-1989.

2. CCC will provide MARAD with the Secretary of Agriculture’s
determination of the metric tonnage and percentage of waterborne
bagged, processed, or fortified commodities exported from Great Lakes
ports in calendar year 1984 under P.L. 480, Title II.

3. The quantity or percentage share of P.L. 480, Title II commodities
to be exported from Great Lakes ports for each of the C.P. years 1986-
1989 shall be based on the quantity or percentage share of P.L. 480,
Title II commodities, whichever is lower, exported from Great Lakes
ports in calendar year 1984 as determined by the Secretary of
Agriculture.

4.Intermodal cargoes transported overland from the Great Lakes to other
U.S. ports for export will not be included in determining the tonnage
shipped from the Great Lakes in any C.P. year.

5. The Secretary of Transportation is charged with administering the
provisions of section 901b(c)(2)(B) of the 1936 Act. CCC and AID will
consult with MARAD at the earliest time that they anticipate any
potential programmatic conflict so that MARAD, CCC and AID can address
the matter consistent with section 901b(c)(2)(B) of the 1936 Act.

                   VII – Minimum Tonnage Requirement

CCC will inform MARAD of the minimum tonnage of exports calculated for
each USDA/CCC program for fiscal year 1986
(last six months) and each fiscal year thereafter in accordance with
section 901c of the 1936 Act. This information will include the
tonnage of exports for each fiscal year in the base period of the
calculation.

                       VIII – Reimbursement Procedures

A.   Incremental OFD

            CCC will prepare and submit to MARAD quarterly invoices for
reimbursement of incremental OFD. The invoice for each quarter will be
provided by CCC to MARAD within forty five (45) calendar days of the
end of the quarter. The amount of the incremental OFD will be due
within ten (10) calendar days after (i) the date CCC notifies MARAD in
writing of its determination that 50 percent of the estimated annual
USDA/CCC program tonnage has been shipped on U.S. –flag vessels or (ii)
the date determined and reported to MARAD by CCC that 50 percent of the
estimated annual USDA/CCC program tonnage is reasonably expected to
have been shipped but in any event, no payment will be made earlier
than forty five (45) calendar days after receipt of the invoice.

B.   Twenty Percent Excess Freight

            An invoice for the amount, if any, representing the 20
percent excess freight as computed in accordance with Article V.C. of
this MOU will be submitted by CCC to MARAD after the end of each fiscal
year as soon as all USDA/CCC program costs have been ascertained and
paid by CCC. Reimbursement of such amounts, if any, will be due forty
five (45) days after receipt of the invoice.

C.   Interest

            If MARAD fails to reimburse CCC within ten (10) days of the
due dates provided in paragraphs A and B above, interest may be
assessed on the amount due from MARAD starting on the first day after
the due date. The interest rate assessed shall be the same as the
current interest rate charged CCC by the Department of Treasury on
CCC’s borrowings from the Department of Treasury.

D.   Invoice Procedure

            CCC invoices will be based on CCC accounting records and
monthly program data provided MARAD. CCC shall use Form SF-1081 in
invoicing MARAD. The invoice shall be addressed as follows:

                             Department of Transportation
                             Maritime Administration
                             Office of Accounting (MAR-330)
                           Room 7318
                           400 Seventh Street, S.W.
                           Washington, D.C. 20590

                               IX – Amendments

This Memorandum of Understanding may be amended at any time upon mutual
agreement of the parties.

                       X – Termination Provisions

This Memorandum of Understanding may be terminated by either party upon
thirty (30) days notice in writing, mutual agreement of the parties, or
by operation of law.

                             XI – Effective Date

This MOU is effective beginning with the C.P. year commencing
April 1, 1986, except as otherwise agreed to by the parties.

________________________                  ___________________
John A. Gaughan /s/                       Milton Hertz /s/
Administrator                             Executive Vice President
Maritime Administration                   Commodity Credit Corporation
For the Department
of Transportation

Date:   20 July 87                        Date: JUL 17 1987


________________________
Jay F. Morris /s/
Deputy Administrator
Agency for International Development

Date: JUL 20 1987
